       November 22, 2006




Acquisition
Competition of the 5.56-Millimeter
Carbine
(D-2007-026)




This special version of the report has been revised to omit predecisional and
                        source selection sensitive data.




                      Department of Defense
                     Office of Inspector General
  Quality                         Integrity                Accountability
Additional Copies

To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
(703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704
                    Department of Defense Office of Inspector General
Report No. D-2007-026                                                           November 22, 2006
      (Project No. D2006-D000AE-0180.000)

                    Competition of the 5.56-Millimeter Carbine (U)

                                    Executive Summary (U)

(U) Why You Should Read This Report. This report discusses an internal control
weakness that program offices should address before releasing presolicitation notices to
industry.

(U) Background. The M4 is a 5.56-millimeter (mm) carbine that allows the individual
soldier operating in close quarters to engage targets at extended range with accurate,
lethal fire. The M4 carbine can be fitted with many accessories, such as night vision
devices, laser pointers, telescopic sights, and the M203 grenade launcher. The Army’s
M4 carbine is manufactured by Colt Defense LLC. On February 3, 2006, the U.S. Army
TACOM Life Cycle Management Command* issued presolicitation notice W52H09-06-
R-0195 for a nondevelopmental 5.56-mm carbine capable of firing U.S. standard M855
and M856 ammunition. The Army issued the presolicitation notice because of the high
price for the M4 carbine and the potential to procure a carbine with improved capabilities
and performance. The Army planned to award contracts for 193,400 carbines. The
estimated procurement cost was $294.7 million. This report addresses whether Army
management followed best business practices when it released the presolicitation notice
to industry.

(U) Results. The Program Executive Office Soldier, through the U.S. Army TACOM
Life Cycle Management Command, prematurely released the presolicitation notice for
the competition of the 5.56-mm carbine before it contacted Colt Defense LLC to
determine whether it would lower unit prices on future M4 carbines, conducted a
business case analysis to determine whether the competition was justified, and obtained
approval from senior Army leadership. During the audit, the Program Executive Office
completed the business case analysis; however, the analysis did not clearly justify a
competition for the 5.56-mm carbine. As a result, the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) cancelled the competition proposed in the
presolicitation notice for a nondevelopmental 5.56-mm carbine and associated
solicitation. However, the Army’s premature release of the presolicitation notice may
have resulted in wasted procurement resources associated with the solicitation notice.
Therefore, the Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
should require program offices to attempt to renegotiate prices with the current
manufacturer, perform a business case analysis or equivalent analysis to justify
proceeding with a competition, and obtain approval from senior Army leadership that the
competition was adequately justified before engaging industry in competition efforts.
(See the Finding section of the report for the detailed recommendation.)


*
    (U) Referred to in previous DoD Inspector General reports as the Tank-automotive and Armaments
    Command.
(U) The Army’s internal controls for the 5.56-mm carbine competition were not
adequate. We identified a material internal control weakness in the process preceding the
release of the presolicitation notice for the carbine competition.

(U) Management Comments and Audit Response. We received comments from the
Army Deputy for Acquisition and Systems Management, responding for the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology). The Deputy for
Acquisition and Systems Management commented on statements in a draft of this report.
However, he neither concurred nor nonconcurred with the recommendation concerning
renegotiating prices with the current manufacturer, justifying proceeding with a
competition, and obtaining approval from senior Army leadership before engaging
industry in competition efforts. See the Finding section of the report for a discussion of
the management comments and the Management Comments section of the report for the
complete text of the comments.

(U) Implementing our recommendation will establish internal controls within the Army
to ensure that a competition action to lower the unit price on a preexisting acquisition is
warranted, that senior Army leadership supports and has a requirement for that action,
and that such action is prudent and provides the best value for the warfighter and the
American taxpayer. Therefore, we request that the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology) provide comments on the recommendation by
December 22, 2006.




                                             ii
Table of Contents

Executive Summary                                                               i

Background                                                                      1

Objectives                                                                      2

Review of Internal Controls                                                     2

Finding
     Release of the Presolicitation Notice for a New 5.56-Millimeter Carbine    3

Appendixes
     A. Scope and Methodology                                                   9
         Prior Coverage                                                        10
     B. Glossary                                                               11
     C. Other Matters of Interest                                              13
     D. Management Comments on the Overall Report and Finding and
          Audit Response                                                       15
     E. Report Distribution                                                    20

Management Comments
     Department of the Army                                                    23
(U)




Source: Wikipedia Online Encyclopedia (http://en.wikipedia.org/wiki/M4_carbine)

(U) M4 Carbine With Selected Attachments
Background
           (U) This report discusses whether Army management followed best business
           practices when it released to industry the presolicitation notice for the competition
           of the 5.56-millimeter (mm) carbine. On February 3, 2006, the U.S. Army
           TACOM Life Cycle Management Command1 issued presolicitation
           notice W52H09-06-R-0195 for a nondevelopmental 5.56-mm carbine capable of
           firing U.S. standard M855 and M856 ammunition. The Army issued the
           presolicitation because of the high price for the M4 carbine and the potential to
           procure a carbine with improved capabilities and performance. The Army
           planned to procure 53,000 M4 carbines and 140,400 5.56-mm carbines, for a total
           of 193,400 carbines. The estimated procurement cost was $294.7 million.
           Appendix B is a glossary of technical terms used in this report.

           (U) M4 Carbine. The M4 carbine allows a soldier operating in close quarters to
           engage targets at extended range with accurate, lethal fire. A carbine is a version
           of the standard service rifle that is reduced in length and weight while firing the
           standard 5.56-mm service rounds of ammunition, the M855 and M856. As a
           replacement for the pistol, its purpose is to provide enhanced firepower in terms
           of increased accuracy, range, lethality, and volume of fire. It is also designed to
           be more portable than the standard rifle. The M4 carbine can be fitted with many
           accessories, such as night vision devices, laser pointers, telescopic sights, and the
           M203 grenade launcher, as shown in the figure on the opposite page. Colt
           Defense LLC (Colt) manufactures the Army’s M4 carbine.

           (U) Assistant Secretary of the Army (Acquisition, Logistics, and
           Technology). The Assistant Secretary of the Army (Acquisition, Logistics, and
           Technology), as the Army Acquisition Executive, is responsible for acquisition
           matters within the Department of the Army and is the single decision authority for
           all Army acquisition matters. The Army Acquisition Executive administers
           acquisition programs in accordance with DoD policies and guidelines and
           develops acquisition policies and procedures. Program Executive Officers report
           to and receive guidance and direction from the Army Acquisition Executive.

           (U) Program Executive Office Soldier. The competition of the 5.56-mm
           carbine is under the purview of the Program Executive Office Soldier. The
           Program Executive Office develops, procures, fields, and sustains practically
           everything the soldier wears or carries. Reporting to the Program Executive
           Office Soldier is the Project Manager Soldier Weapons. Project Manager Soldier
           Weapons supports soldiers through the development, production, and
           procurement of future and current weapon systems, ammunition, and related
           target acquisition and fire control products.




1
    (U) Referred to in previous DoD Inspector General reports as the Tank-automotive and Armaments
    Command.


                                                    1
Objectives (U)
     (U) Our overall audit objective was to evaluate whether the Army justified the
     competition for a new 5.56-mm carbine and was effectively preparing for a
     low-rate initial production decision and a full-rate production decision. We also
     evaluated the managers’ internal controls as they related to the overall audit
     objective. See Appendix A for a discussion of the scope and methodology and
     Appendix C for a discussion of other matters of interest.

Review of Internal Controls (U)
     (U) We determined that a material internal control weakness in the Program
     Executive Office Soldier existed as defined by DoD Instruction 5010.40,
     “Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006. The
     DoD 5000 series of guidance requires the program manager and the milestone
     decision authority to exercise discretion and prudent business judgment to
     structure a tailored, responsive, and innovative program. The release of a
     presolicitation notice for the 5.56-mm carbine competition before contacting Colt
     to determine whether Colt would lower unit prices, conducting a business case
     analysis to justify proceeding with the competition, and obtaining approval from
     senior Army leadership is not a best business practice. Implementing our
     recommendation will improve controls by requiring price negotiations with the
     current manufacturer, a business case analysis or equivalent analysis to justify
     proceeding with a competition, and approval from senior Army leadership before
     engaging industry in competition efforts. We will provide a copy of this report to
     the senior Army official responsible for internal controls in the Department of the
     Army.




                                          2
           Release of the Presolicitation Notice for a
           New 5.56-Millimeter Carbine (U)
           (U) The Program Executive Office Soldier, through the U.S. Army
           TACOM Life Cycle Management Command, prematurely released the
           presolicitation notice for the competition of the 5.56-mm carbine before it
           contacted Colt to determine whether Colt would lower unit prices,
           conducted a business case analysis to determine whether the competition
           was justified, and obtained senior Army leadership approval that the
           competition was clearly justified. After releasing the presolicitation
           notice, the Program Executive Office Soldier completed a business case
           analysis. Based on the results of that analysis, the Assistant Secretary of
           the Army (Acquisition, Logistics, and Technology) cancelled the
           competition proposed in the presolicitation notice for a nondevelopmental
           5.56-mm carbine and associated solicitation. The Program Executive
           Office Soldier’s premature release of the presolicitation notice was a bad
           business practice and may have resulted in wasted procurement resources
           associated with the presolicitation notice.

Innovative Practices and Prudent Business Judgment (U)
    (U) DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003;
    and DoD Instruction 5000.2, “Operation of the Defense Acquisition System,”
    May 12, 2003, provide guidance concerning innovative practices and prudent
    business judgment. Army Regulation 70-1, “Army Acquisition Policy,”
    December 31, 2003, implements DoD Directive 5000.1 and DoD
    Instruction 5000.2.

            (U) DoD Directive. DoD Directive 5000.1 requires milestone decision
    authorities and project managers to examine and, as appropriate, adopt innovative
    practices, including best commercial practices and electronic business solutions,
    that reduce cycle time and cost, and encourage teamwork.

           (U) DoD Instruction. DoD Instruction 5000.2 requires the milestone
    decision authority and the program manager to use discretion and prudent
    business judgment to structure a tailored, responsive, and innovative program.

            (U) Army Regulation. Army Regulation 70-1 governs research,
    development, acquisition, and life-cycle management of Army materiel to satisfy
    approved Army requirements. It contains internal control provisions and
    identifies key internal controls that must be evaluated. The Assistant Secretary of
    the Army (Acquisition, Logistics, and Technology) is responsible for suggested
    changes to Army Regulation 70-1.




                                         3
Release of the Presolicitation Notice for the 5.56-mm Carbine (U)
     (U) Presolicitation Notice. On February 3, 2006, the U.S. Army TACOM Life
     Cycle Management Command, Rock Island, Illinois, on behalf of the Program
     Executive Office Soldier, issued presolicitation notice W52H09-06-R-0195 to
     prospective offerors. The presolicitation notice described a requirement for a
     nondevelopmental 5.56-mm carbine capable of firing U.S. standard M855 and
     M856 ammunition.

     (U) The presolicitation notice stated that the acquisition of the 5.56-mm carbine
     would be a capabilities-based competition to a performance requirement, not a
     detailed design technical data package. The performance requirements that are
     described in the presolicitation notice are based on the requirements from the M4
     Carbine Required Operational Capability, dated January 25, 1990. The
     requirements for the 5.56-mm carbine, as specified in the presolicitation notice,
     included a minimum barrel life of 10,000 rounds; weight not exceeding
     6.5 pounds when unloaded; a sustained rate of fire greater than or equal to
     45 rounds per minute without degrading reliability; compatible with the M203
     under-barrel 40-mm grenade launcher; Military Standard 1913 rails; and
     compatible with currently fielded sighting, aiming, and illuminating devices.
     Further, the presolicitation notice stated that the U.S. Army TACOM Life Cycle
     Management Command, Rock Island, would release a request for proposals on its
     Web site on or about March 20, 2006.

     (U) M4 Price Reduction. On February 24, 2006, the Executive for Contracting,
     U.S. Army TACOM Life Cycle Management Command, on behalf of the
     Program Executive Office Soldier, issued a letter to Colt that stated that the
     two principal reasons for the presolicitation notice were the high price for the M4
     carbine and the potential to procure a carbine with improved capabilities and
     performance. The Executive for Contracting also stated that the current price for
     the M4 carbine was high compared with other rifle prices. Further, the Executive
     for Contracting stated that the Army would conduct a cost-benefit analysis to
     determine whether to continue the acquisition of the M4 carbine. In conclusion,
     the Executive for Contracting requested that Colt propose a price reduction for the
     M4.

     (U) On March 3, 2006, the President and Chief Executive Officer, Colt,
     responded to the Executive for Contracting’s letter. The President and Chief
     Executive Officer proposed a revised price structure for the M4 carbine through
     December 31, 2007. The President and Chief Executive Officer stated that if the
     Government provided Colt with their future procurement plans, then Colt could
     possibly provide a stronger price reduction for the M4 carbine.

     (U) On March 6, 2006, the Executive for Contracting sent an e-mail response to
     the letter from Colt. The Executive for Contracting discussed M4 carbine annual
     procurement quantities for FYs 2007 through 2009.

     (U) On March 14, 2006, the President and Chief Executive Officer, Colt,
     responded to the e-mail from the Executive for Contracting. He proposed a




                                          4
           further M4 carbine unit price reduction for FYs 2008 through 2009 and beyond.
           Colt’s revised price reduction for the M4 carbine would reach approximately
           ***** percent by 2009.

           (U) Business Case Analysis. In April 2006, the Program Executive Office
           Soldier completed a business case analysis to determine whether a competition for
           the 5.56-mm carbine was justified. The business case analysis evaluated six
           competition options for the acquisition of 5.56-mm carbines and compared them
           based on ******************. The options included:

                    •   ************************************************
                        ******************;
                    •   ************************************************ **
                        ************************************************ **
                        ******************************;
                    •   ************************************************ ********
                        ************************************************;
                    •   ************************************************ ********
                        ************************************************ ********
                        ***************************************;
                    •   *******************************; *****************and
                    •   ************************************************ ******
                        ********************.

           (U) Based on the business case analysis results, the Program Executive Office
           Soldier concluded that the best *******************************
           ******************************************************************
           ******************************************************.

           (U) Senior Army Leadership Decision. On April 27, 2006, the Deputy
           Program Executive Officer Soldier briefed the business case analysis results to
           the Assistant Secretary of the Army (Acquisition, Logistics, and Technology).
           The Assistant Secretary determined that the results of the business case analysis
           “were not sufficiently discriminatory to justify competition.” In addition, he
           directed the Program Executive Office Soldier to negotiate further M4 carbine
           unit price reductions with Colt and to sole-source with Colt to continue supplying
           soldiers with M4 carbines. In addition, the Assistant Secretary stated that if Colt
           provides M4 carbines at a reasonable price to the Army, the Army will continue
           to purchase M4 carbines through June 2009 or until the Joint Requirements
           Oversight Council approves a new requirement for a carbine. Accordingly, on
           April 27, 2006, the Assistant Secretary of the Army (Acquisition, Logistics, and
           Technology) cancelled the competition proposed in the presolicitation notice.

           (U) On June 12, 2006, the Deputy Chief of Staff (G-3/5/7) issued a memorandum
           to the Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
           in which he stated that the Army’s introduction of a new carbine design without

*
    (U) Predecisional and source selection sensitive data omitted.


                                                       5
           significantly improved performance was unacceptable and that the Army did not
           have a requirement for higher performance on which to base a competition.
           Further, the Deputy Chief of Staff (G-3/5/7) stated that soliciting any requirement
           for a carbine capability, including potential schedule slippages, different
           operational characteristics, or the inadvertent introduction of new parts and
           assemblies that may not be fully interchangeable with the current M4 carbine
           design and stocked items, has unacceptable risks.

           (U) Notification of Cancellation. On June 15, 2006, the U.S. Army TACOM
           Life Cycle Management Command notified industry that the competition
           proposed in the presolicitation notice was cancelled.

Effects of Prematurely Releasing the Presolicitation Notice (U)
           (U) Resource Expenditures. Prematurely releasing the presolicitation notice for
           the competition of the 5.56-mm carbine may have resulted in wasted procurement
           resources associated with the presolicitation notice before the Assistant Secretary
           of the Army (Acquisition, Logistics, and Technology) cancelled it.

           (U) Contractor Suggestions. A representative from one of the offerors
           responding to the presolicitation notice expressed concern that the Government
           often engages industry for its response to a solicitation and then cancels the
           competition. The representative suggested that the Government conduct more
           complete “staffing” of either a solicitation or presolicitation notice before issuing
           those documents so that the Defense industry is not needlessly energized. A
           representative from another offeror suggested that the Government thoroughly
           review and approve a solicitation so that the solicitation is final once it is issued.

           (U) Competition Cancellations. The Army’s cancellation of the competition
           proposed in the presolicitation notice was the second carbine solicitation that the
           Army cancelled within one year after having notified potential offerors of a
           forthcoming competition. The Army also cancelled the request for proposals for
           the development and production of the Objective Individual Combat Weapon
           Increment I family of weapons.2

Conclusion (U)
           (U) The Program Executive Office Soldier, through the U.S. Army TACOM Life
           Cycle Management Command, entered into negotiations with Colt to lower the
           price for the M4 carbine after issuing the presolicitation notice. As a result, the
           price reductions offered by Colt affected the results of the business case analysis
           to the point that the Assistant Secretary of the Army (Acquisition, Logistics, and
           Technology) determined that a competition would not yield significant benefits to
           the Army. If the Program Executive Office Soldier had renegotiated unit prices
           with Colt, completed its business case analysis, and obtained approval from

2
    (U) See DoD Inspector General Audit Report No. D-2006-004, “Acquisition of the Objective Individual
    Combat Weapon,” October 7, 2005, for further details.


                                                    6
    senior leadership before issuing the presolicitation notice, the Army may have
    obtained a lower price for the M4 carbine, avoided wasting procurement
    resources, and avoided having to cancel a second carbine solicitation within a
    year.

Management Comments on the Finding and Audit Response (U)
    (U) Summaries of management comments on the finding and audit responses are
    in Appendix D.

Recommendation, Management Comments, and Audit
  Response (U)
    (U) We recommend that the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology) revise Army Regulation 70-1, “Army Acquisition
    Policy,” December 31, 2003, to require program offices to attempt to
    renegotiate prices with the current manufacturer, perform a business case
    analysis or equivalent analysis to justify proceeding with a competition, and
    obtain senior Army leadership approval that a competition is adequately
    justified before engaging industry in competition efforts.

    (U) Management Comments. The Army Deputy for Acquisition and Systems
    Management, responding for the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology), neither concurred nor nonconcurred with the
    recommendation. However, the Deputy stated in comments on the finding that
    the Program Executive Office Soldier followed proper procedures in considering
    full and open competition. Further, he stated that a business case analysis is
    normally conducted only to justify an acquisition using other than full and open
    competition. He stated that the business case analysis was initiated without Colt’s
    input; however, after receiving Colt’s revised pricing, those prices were included
    in the business case analysis. The Deputy also stated that the Army did not
    attempt to justify a decision without complete data. Further, he stated that the
    Program Executive Office Soldier used prudent business judgment and best
    commercial practices to obtain the best information during the analysis so that
    Army Acquisition Executive could make an informed decision. For the complete
    text of the Deputy’s comments, see the Management Comments section of this
    report.

    (U) Audit Response. The Army’s comments were not responsive. By not
    contacting Colt to determine whether Colt would lower unit prices on future M4
    carbines, conducting a business case analysis to determine whether the
    competition was justified, and obtaining approval from senior Army leadership
    before the release of the presolicitation notice, the Program Executive Office
    Soldier did not use prudent business judgment and best commercial practices and
    wasted procurement resources. To preclude such improper contracting actions
    from occurring in the future, the Assistant Secretary needs to establish and
    implement internal controls within the Army to ensure that a competition action
    to lower the unit price on a preexisting acquisition is warranted and that senior


                                         7
Army leadership supports and has a requirement for that action. By following
those procedures, the Assistant Secretary will foster acquisition actions that
provide the best value for the warfighter and the American taxpayer.

(U) Because the Deputy for Acquisition and Systems Management did not
specifically comment on the recommendation, we request that the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) provide
comments on the recommendation by December 22, 2006.




                                    8
Appendix A. Scope and Methodology (U)
   (U) We reviewed the following documentation dated from January 1990 through
   April 2006 to accomplish the audit objectives:

          •   competition documents, including presolicitation notice W52H09-06-
              R-0195, February 3, 2006; and the Carbine Competition Business Case
              Analysis, April 27, 2006;
          •   program documents, including the M4 carbine required operational
              capability document, January 25, 1990; and the Acquisition Strategy
              Report and Acquisition Plan for the 5.56-mm Carbine Program
              FY 2006-2011; and
          •   correspondence between Colt Defense LLC and the Army on June 27,
              2001; February 24, 2006; March 3, 2006; March 6, 2006; and
              March 14, 2006.

   (U) We also contacted the staff of the Offices of the Under Secretary of Defense
   for Acquisition, Technology, and Logistics; the Joint Staff (J-8); the U.S. Army
   Training and Doctrine Command; the Assistant Secretary of the Army
   (Acquisition, Logistics, and Technology); the U.S. Army TACOM Life Cycle
   Management Command; the U.S. Army Test and Evaluation Command; the
   Deputy Chief Staff (G-3/5/7); the Deputy Chief of Staff (G-8); the U.S. Army
   Infantry Center; the Deputy Program Executive Office Soldier; and the
   contractors that expressed interest in the presolicitation notice to determine:

          •   whether DoD or the Army had acquisition procedures for the
              recompetition of an approved requirement that could result in a new
              materiel solution,
          •   whether the user representatives supported the Army’s decision to
              conduct a competition for the 5.56-mm carbine,
          •   whether the Government expended resources on preparing and issuing
              the presolicitation notice,
          •   what level of testing would have been required for the winner of the
              competition,
          •   whether funds were available to meet the required procurement
              quantities,
          •   the purpose of the 5.56-mm carbine competition,
          •   the status of the business case analysis, and
          •   the amount of resources spent by the contractors in preparing
              responses to the presolicitation notice.

   (U) We performed this audit from March 2006 through September 2006 in
   accordance with generally accepted government auditing standards.




                                       9
    (U) Use of Computer-Processed Data. We did not use computer-processed
    data to perform this audit.

    (U) Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Weapon Systems Acquisition high-risk area.

Prior Coverage (U)
    (U) During the last 5 years, the DoD Inspector General issued a report related to
    the Army’s cancellation of a solicitation after having notified potential offerors of
    a forthcoming competition. Unrestricted DoD Inspector General Reports can be
    accessed at http://www.dodig.mil/audit/reports.

    DoD Inspector General Report No. D-2006-004, “Acquisition of the Objective
    Individual Combat Weapon,” October 7, 2005




                                         10
Appendix B. Glossary (U)
   (U) Acquisition Strategy. An acquisition strategy is a management approach
   designed to achieve program objectives within the resource constraints imposed.
   It is the framework for planning, directing, contracting for, and managing a
   program.

   (U) Business Case Analysis. A business case analysis is the process used to
   make an investment decision. A business case provides the information necessary
   to make a decision about whether an initiative or project should proceed. It
   includes an examination of all the costs, benefits, and risks associated with a
   proposed investment, and offers reasonable choices and alternatives.

   (U) Full and Open Competition. Full and open competition enables all
   responsible offerors to participate in a competition.

   (U) Full-Rate Production. Full-rate production is contracting for economic
   production quantities following stabilization of the system design and validation
   of the production process.

   (U) Low-Rate Initial Production. Low-rate initial production establishes an
   initial production base for the system, permits an orderly ramp-up sufficient to
   lead to a smooth transition to full-rate production, and provides production-
   representative articles for initial operational test and evaluation and live-fire
   testing.

   (U) Milestone Decision Authority. The milestone decision authority is the
   designated individual who has the overall responsibility for a program and is
   accountable for cost, schedule, and performance reporting to higher authority.
   The milestone decision authority has the authority to approve the program’s entry
   into the next phase of the acquisition process.

   (U) Military Standard 1913 Rails. Military Standard 1913 rails are brackets
   used on some firearms. The brackets provide a standardized mounting platform
   for accessories such as tactical lights and laser sighting modules.

   (U) Nondevelopmental Item. A nondevelopmental item is any previously
   developed item used exclusively for government purposes by a Federal agency, a
   State or local government, or a foreign government with which the United States
   has a mutual defense cooperation agreement. These items require only minor
   modifications or modifications of the type customarily available in the
   commercial marketplace to meet the requirements of the processing department or
   agency.

   (U) Operational Requirements Document. An operational requirements
   document lists the performance parameters for the proposed concept or system.




                                        11
(U) Presolicitation Notice. A presolicitation notice provides a general
description of the scope or purpose of the acquisition. It invites potential offerors
to submit information that allows the Government to advise the offerors about
their potential to be viable competitors.

(U) Required Operational Capability Document. Required operational
capability documents were replaced by operational requirements documents in
February 1991. Both documents state concisely the minimum essential
operational, technical, personnel, safety, health, human factors engineering,
training, logistics, and cost information necessary to initiate the full-scale
development phase or procurement of a materiel system.

(U) Request for Proposals. A request for proposals is a solicitation used in
negotiated acquisition to communicate Government requirements to prospective
contractors and to solicit proposals.

(U) Sole-Source Contracting. Sole-source contracting is used for the purchase
of supplies or services that is entered into or proposed to be entered into by an
agency after soliciting and negotiating with only one source.

(U) Technical Data Package. A technical data package is a description of an
item adequate for supporting an acquisition strategy, production, and engineering
and logistics support. A technical data package consists of applicable data such
as models, drawings, associated lists, specifications, standards, performance
requirements, quality assurance requirements, software documentation, and
packaging details.




                                     12
Appendix C. Other Matters of Interest (U)
    (U) This appendix discusses three matters of interest for Army management’s
    attention. During the audit, we identified a funding shortage of the M4 carbine
    for FY 2007, a 16-year old requirement document that the Army used for the
    competition of the 5.56-mm carbine, and a legal settlement between the U.S.
    Government and Colt. A discussion of those matters follows.

FY 2007 Funding for the M4 Carbine (U)
    (U) According to a representative from the Office of the Deputy Chief of Staff
    (G-8), the Army required $90 million in procurement funds in FY 2007 to equip
    soldiers in brigade combat teams with M4 carbines; however, Army funding for
    the M4 carbine was only $2.2 million for FY 2007, as of September 14, 2006.
    The Army requested $9.3 million of Objective Individual Combat Weapon
    Increment I FY 2007 procurement funding be reallocated to the M4 carbine. In
    addition, the representative stated that the Army planned to request the needed
    funds in the FY 2007 supplemental budget.

M4 Carbine Required Operational Capability (U)
    (U) The Program Executive Office Soldier based the presolicitation notice on the
    M4 carbine required operational capability document from 1990. If the Program
    Executive Office Soldier had included improved capabilities or modifications in
    the competition for the 5.56-mm carbine that were not defined in the approved
    M4 carbine required operational capability document, then the Program Executive
    Office Soldier would have had to obtain an updated requirements document,
    according to representatives of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics; the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology); the Deputy Chief Staff (G-3/5/7); and the Joint Staff
    (J-8). Further, the representatives from the Under Secretary of Defense for
    Acquisition, Technology, and Logistics and the Joint Staff (J-8) stated that the
    updated requirements document would have to be in the format specified by
    Chairman of the Joint Chiefs of Staff Instruction 3170.01E, “Joint Capabilities
    Integration and Development System,” May 11, 2005.

    (U) The 1990 M4 carbine required operational capability document may not fully
    reflect the capabilities of the M4 carbine as it performs today. A representative
    from the U.S. Army Infantry Center stated that as a result of technical and
    engineering changes, the M4 carbine currently performs better than the
    capabilities described in the M4 carbine required operational capability document.

M4 Carbine Legal Settlement (U)
    (U) M4 Carbine Technical Data Package. In June 1967, Colt and the
    Government entered into a patent license agreement for the M16 rifle. In March

                                        13
1985, Colt and the Government extended the license agreement to include the M4
carbine because the M4 carbine was a derivative of the M16 rifle. The license
agreement gave the Government limited rights to the technical data and placed
restrictions on its use. The license agreement included a provision that limits the
Army’s right to transfer or release the technical data package.

(U) Inappropriate Release of the M4 Carbine Technical Data Package. DoD
Inspector General Report No. 97-165, “Procurement of the M4 Carbine,” June 17,
1997, stated that, in January 1996, the Army released the M4A1 carbine technical
data package to the Navy. The Navy requested the technical data package for
internal use, but inappropriately released it in August 1996 to contractors in a
solicitation for M4A1 adapter kits. Further, the report stated that the Army and
Navy failed to protect the confidentiality of Colt’s technical data package and had
inadequate controls to safeguard Colt’s proprietary data. The report concluded
that the M4A1 technical data package was inappropriately released to contractors
for purposes outside the scope of the M4 license agreement.

(U) Lawsuit Regarding the Inappropriate Release of the M4 Carbine
Technical Data Package. Colt filed a lawsuit against the Government regarding
the rights and responsibilities of each party under License Agreement
DAAF03-67-C-0108. On December 24, 1997, as a result of the legal settlement,
the Government and Colt entered into an addendum to the Technical Data Sales
and Patent License for the M4 carbine which clarified the safeguards to be
undertaken by the Government with respect to control and dissemination of
licensed technology. M4 carbine licensed technology includes proprietary data,
improvements, and intellectual property. Proprietary data includes the technical
data package.




                                    14
Appendix D. Management Comments on the
            Overall Report and Finding and
            Audit Response (U)
   (U) Our detailed response to the comments from the Army Deputy for
   Acquisition and Systems Management, responding for the Assistant Secretary of
   the Army (Acquisition, Logistics, and Technology), on statements in a draft of
   this report follow. The complete text of those comments is in the Management
   Comments section of this report.

   (U) Comments on the Release of the Presolicitation Notice. The Deputy
   commented on the draft report statement that:
          The Program Executive Office Soldier, through the U.S. Army Tank-
          automotive and Armaments Command [U.S. Army TACOM Life Cycle
          Management Command], prematurely released the presolicitation notice for
          the competition of the 5.56-millimeter carbine before it contacted Colt
          Defense LLC to determine whether it would lower unit prices on future M4
          carbines, conducted a business case analysis to determine whether the
          competition was justified, and obtained approval from senior Army leadership.

   The Deputy stated that the primary reason Colt decided to consider and eventually
   lower the unit prices on future M4 carbines was because the Program Executive
   Office Soldier issued the presolicitation notice before contacting Colt. He stated
   that Colt has been the Army’s sole-source contractor for the M4 since 1993 and
   had not shown a desire to consider a price reduction before the release of the
   presolicitation notice. The Deputy stated that the M4 unit price increased from
   $523.84 in 2001 to $980 in 2005. He stated that the Army cannot force a supplier
   to make their processes more efficient. The Deputy stated that Colt had continued
   to increase costs and had not been willing to lower prices.

   (U) The Deputy stated that the Competition in Contracting Act, the President’s
   Management Agenda, and other statutes and policy documents recommend full
   and open competition as the preferred method of acquisition. He also stated that
   the Program Executive Office Soldier followed proper procedures in considering
   full and open competition.

   (U) The Deputy stated that a business case analysis is normally conducted only to
   justify an acquisition using other than full and open competition. He stated that
   although a business case analysis for the acquisition of a nondevelopmental
   5.56-mm carbine was not required, the Military Deputy to the Assistant Secretary
   of the Army (Acquisition, Logistics, and Technology) requested that such an
   analysis be conducted. The Deputy stated that the Program Executive Officer
   agreed with the Military Deputy’s request and directed the Project Manager to
   conduct it. The Deputy stated that the business case analysis was initiated
   without Colt’s input; however, after receiving Colt’s revised pricing, those prices
   were included in the business case analysis.

   (U) Accordingly, the Deputy stated that the Army did not attempt to justify a
   decision without complete data. The Deputy stated that the Program Executive

                                           15
Office Soldier used prudent business judgment and best commercial practices to
obtain the best information so that Army Acquisition Executive could make an
informed decision.

(U) Audit Response. In reference to the FY 2004 procurement action for M4s,
Colt’s price for the M4 was considered reasonable. Specifically, in 2004, the
Defense Contract Audit Agency determined that Colt’s M4 price proposal was
acceptable for the negotiation of a fair and reasonable price. Also, according to a
representative from the U.S. Army TACOM Life Cycle Management Command,
Rock Island, Illinois, which was responsible for M4 contract actions, the Army
had not contacted Colt to officially request a price reduction for the M4 before the
U.S. Army TACOM Life Cycle Management Command issued the presolicitation
notice. Although the Program Executive Office Soldier achieved positive price
reductions for the M4 carbine by releasing the presolicitation notice, it may have
been able to achieve the same price reductions by formally negotiating with Colt
before releasing the presolicitation notice and energizing industry.

(U) Although we agree that full and open competition is the preferred acquisition
method, competition should only be initiated after the milestone decision
authority and program manager use discretion and prudent business judgment to
structure a tailored, responsive, and innovative program. By not negotiating with
the contractor, conducting a business case analysis, and obtaining senior
leadership approval of the requirement and the competition before releasing the
presolicitation notice, the Program Executive Office Soldier did not use discretion
or prudent business judgment. The premature release of the presolicitation notice
may have resulted in wasted procurement resources.

(U) Comments on Internal Controls. The Deputy commented on the draft
report statement that “The Army’s internal controls for the 5.56-millimeter
carbine competition were not adequate. We identified a material internal control
weakness in the process preceding the release of the presolicitation notice for the
carbine competition.” The Deputy stated that the internal controls were adequate
for the 5.56-mm carbine competition and that no material internal control
weaknesses existed. He also stated that the process consisted of high-level
integrated product team meetings among Program Executive Office Soldier
personnel; the U.S. Army TACOM Life Cycle Management Command, Rock
Island, Illinois, and Picatinny Arsenal acquisition executives; the Principal
Assistant Responsible for Contracting; and legal departments.

(U) The Deputy stated that the presolicitation notice notified industry that the
Army intended to competitively acquire a 5.56-mm carbine based on an existing
performance requirement and that a request for proposals would be issued later.
The Deputy stated that industry was not required to respond to the presolicitation
notice or to expend any resources. In addition, he stated that the presolicitation
notice was an advance announcement of a potential solicitation, similar to an
Advanced Planning Briefing to Industry Conference, which identifies future
opportunities to industry. The Deputy reiterated this point later in his comments.




                                    16
(U) Audit Response. The high-level integrated product team would have used
prudent business judgment and best commercial practices had they established
internal controls for the process preceding the release of the presolicitation notice
for the carbine competition. The team would have ensured that the Program
Executive Office Soldier:

       •   contacted Colt to determine whether Colt would lower unit prices on
           future M4 carbines,
       •   conducted a business case analysis to determine whether the
           competition was justified, and
       •   obtained approval of a requirement for the action from senior Army
           leadership before releasing the presolicitation notice.

(U) Although industry was not required to respond to the presolicitation notice or
to expend any resources, the short timeframe to respond to the request for
proposals encouraged potential offerors to begin preparations for submitting their
proposals. The presolicitation notice issued February 3, 2006, stated that “a
Request for Proposal (RFP), W52H09-06-R-0195, will be posted on the TACOM-
Rock Island Acquisition Center website . . . on or about 20 March 2006,” which
was only 7 weeks after the presolicitation notice was issued. The presolicitation
notice also stated that “proposals, along with seven (7) bid samples, are required
to be delivered within thirty (30) days from the date the request for proposal is
released.”

(U) Comments on the Army Acquisition Executive as Milestone Decision
Authority. The Deputy commented on the background information in the draft
report concerning Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) responsibilities. The Deputy discussed the Assistant Secretary’s
“blanket designation” process for assigning a program executive officer to an
Acquisition Category III program (less than major system) and stated that because
the carbine program was an Acquisition Category III program, the Program
Executive Officer Soldier was within his scope of authority to release the
presolicitation notice.

(U) Audit Response. The information in the draft report concerning the
Assistant Secretary was background information regarding his role in the system
acquisition process. We agree that as the Army Acquisition Executive, the
Assistant Secretary has the authority to delegate milestone decision authority for
Acquisition Category III programs to a program executive officer and that the
Program Executive Officer Soldier had the authority to initiate the competition.

(U) Comments on the Cancelled Requirement. The Deputy disagreed with the
draft report statement that “the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) cancelled the requirement for a nondevelopmental
5.56-mm carbine and associated solicitation.” The Deputy stated that the
Assistant Secretary did not cancel the requirement for a nondevelopmental
5.56-mm carbine. The Deputy stated that the Assistant Secretary cancelled the
need for a competition in order to satisfy the requirement. In addition, the Deputy
stated that the Army will continue to procure 5.56-mm carbines.



                                     17
(U) Audit Response. We modified the report to clarify that the requirement for
a carbine was not cancelled, but that the competition proposed in the
presolicitation notice was cancelled.

(U) Comments on Resource Expenditures. The Deputy commented on the
draft report statement that:
       Prematurely releasing the presolicitation notice for the competition of the
       5.56-mm carbine may have resulted in the unnecessary use of resources.
       Specifically, potential offerors may have expended resources in preparing
       responses to the presolicitation notice before the Assistant Secretary of the
       Army (Acquisition, Logistics, and Technology) cancelled it. In addition, the
       Government spent time and effort issuing the presolicitation notice.

The Deputy stated that the Government’s time and effort in issuing the notice was
a normal operating cost for the program manager to fulfill an existing
performance requirement. Additionally, he stated that the Army’s return on
investment in a lower unit price from Colt outweighed the time spent in preparing
and issuing the notice.

(U) Audit Response. Although the Program Executive Office Soldier’s efforts
achieved positive price reductions on the M4 carbine, prudent planning, including
the completion of the business case analysis and negotiation with Colt, may have
avoided needlessly energizing procurement resources with the release of the
presolicitation notice.

(U) Comments on Contractor Suggestions. The Deputy commented on the
draft report statement that:
       A representative from one of the offerors responding to the presolicitation
       notice expressed concern that the Government often engages industry for its
       response to a solicitation and then cancels the competition. The representative
       suggested that the Government conduct more complete ‘staffing’ of either a
       solicitation or presolicitation notice before issuing those documents so that the
       Defense industry is not needlessly energized.

The Deputy stated that the Army did not release a solicitation; therefore,
responses from industry were not necessary. He also stated that the
presolicitation notice was properly staffed from the Project Manager’s office
through the contract and legal offices at the Picatinny Arsenal and the U.S. Army
TACOM Life Cycle Management Command and through the Program Executive
Office Soldier.

(U) Audit Response. As previously discussed, although industry was not
required to respond to the presolicitation notice or to expend any resources, the
short timeframe to respond to the request for proposals encouraged potential
offerors to begin preparations for submitting their proposals.

(U) Even though the Deputy believes that the presolicitation notice was properly
staffed, the presolicitation notice should have been staffed with senior Army
leadership, including the Deputy Chief of Staff (G-3/5/7) to determine whether a
new carbine design would be acceptable, especially during a time of war. After
the presolicitation notice was issued, the Deputy Chief of Staff (G-3/5/7) issued a


                                          18
memorandum to the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) in which he stated that:

       •   the introduction of a new carbine design without significantly
           improved performance was unacceptable;
       •   the Army did not have a requirement for higher performance on which
           to base a competition; and
       •   soliciting any requirement for a carbine capability, including potential
           schedule slippages, different operational characteristics, or the
           inadvertent introduction of new parts and assemblies that may not be
           fully interchangeable with the current M4 carbine design and stocked
           items, has unacceptable risks.

(U) Comments on Presolicitation Notice Definition. The Deputy disagreed
with the definition of presolicitation notice in the report, which states a
presolicitation notice “invites potential offerors to submit information that allows
the Government to advise the offerors about their potential to be viable
competitors.” The Deputy stated that the presolicitation notice definition in the
report was a partial description of an announcement for a market survey, sources
sought, or both. He stated that a presolicitation notice is issued to industry as
advance notification that a potential request for proposals is planned for the
future. Further, the Deputy stated that a presolicitation notice is not used to
advise contractors about their potential to be viable competitors.

(U) Audit Response. Neither the Federal Acquisition Regulation nor the
Defense Federal Acquisition Regulation define the terms “market survey” or
“sources sought.” Our definition of the “presolicitation notice” is from the
Federal Acquisition Regulation Subpart 15.2, “Solicitation and Receipt of
Proposals and Information,” which states that:
       The agency may publish a presolicitation notice that provides a general
       description of the scope or purpose of the acquisition and invites potential
       offerors to submit information that allows the Government to advise the
       offerors about their potential to be viable competitors. The presolicitation
       notice should identify the information that must be submitted and the criteria
       that will be used in making the initial evaluation. . . . At a minimum, the notice
       shall contain sufficient information to permit a potential offeror to make an
       informed decision about whether to participate in the acquisition.

Although the presolicitation notice for a nondevelopmental 5.56-mm carbine
capable did not invite potential offerors to respond to the presolicitation notice,
the notice did cause procurement resources to be wasted in anticipation of the
request for proposals, as stated previously.




                                          19
Appendix E. Report Distribution (U)

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff
   Director for Force Structure, Resources, and Assessment (J-8)

Department of the Army
Commander, Army Training and Doctrine Command
  Commanding General, Army Infantry Center
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Program Executive Officer Soldier
      Project Manager Soldier Weapons
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, Army TACOM Life Cycle Management Command
Commander, Army Test and Evaluation Command
Deputy Chief of Staff (G-3/5/7)
Deputy Chief of Staff (G-8)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency




                                          20
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                       21
___________________________________________________________________



Department of the Army Comments (U)




                             23
               ___________________________________________________________________




Final Report
 Reference




Pages i, 3,
6-7




                                            24
___________________________________________________________________




                             25
               ___________________________________________________________________




Final Report
 Reference




Revised




                                            26
___________________________________________________________________




                                                                      Final Report
                                                                       Reference




                                                                      Page 12




                             27
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition and Contract Management prepared this report. Personnel
of the Office of the Inspector General of the Department of Defense who
contributed to the report are listed below.

Richard B. Jolliffe
John E. Meling
Jack D. Snider
Kevin W. Klein
Deborah J. Thomas
Zelideth Rodriguez-Velazquez
Jillisa H. Milner
